LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 26, 2020

RE 19-677: DAVE YOST, ET AL. V. PLANNED PARENTHOOD SOUTHWEST OHIO
REGION, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondents, on February 26,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioners:
PETITIONERS:
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
614-466-8980
benjamin.flowers@ohioattorneygeneral.gov
This service was effected by depositing three copies of a Brief in Opposition in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 26th day of February 2020.

